Audit of NSF's Resolution and Followup
      Process for External Audits



        National Science Foundation
        Office of Inspector General



            December 23, 2009
             OIG 10-2-006
THIS PAGE INTENTIONALLY LEFT BLANK
Executive Summary

Background
The National Science Foundation (NSF) supports basic research and education
through funding competitive, merit-based grants and agreements. In order to
meet its stewardship responsibilities, NSF must ensure that the recipients of
these funds are using them for authorized purposes, accounting for them
properly, and abiding by Federal laws and regulations.

Independent audits conducted by the NSF Office of Inspector General (OIG) of
the institutions receiving NSF funds are one mechanism available to NSF to
effectively oversee its awarded funds. The process of resolving the findings and
recommendations contained in these external audit reports, and following up to
ensure that institutions implement proposed corrective actions, allows for
addressing current and preventing future issues found at NSF’s funded
institutions.

Federal guidance and expectations for resolving audits conducted by OIGs are
outlined in the Office of Management and Budget’s (OMB) Circular A-50, Audit
Followup (Circular A-50), and in the Inspector General Act of 1978, as amended
(IG Act). Taken together, these two documents define relevant terms, outline
agency and OIG responsibilities, and establish expectations and responsibilities
for audit resolution and followup systems with timeframes for resolving and taking
corrective action on OIG and other Federal audits.

Objective
The audit resolution and followup process is critical to ensuring that institutions
take the corrective actions necessary to properly manage Federal funds;
therefore, the objective of this audit was to determine whether NSF has adequate
policies, procedures, and practices to ensure effective and timely resolution of
audit findings and recommendations and followup of corrective actions for audits
of NSF award recipients.

Results in Brief
Our review found that NSF’s audit resolution and followup policies and
procedures and implementing practices are inadequate to effectively respond to
and address the findings and recommendations reported in OIG audits of NSF’s
awardee institutions.

Specifically, NSF’s audit resolution policies, procedures, and, most importantly,
practices do not recognize the shared responsibility between the agency and the
OIG for the resolution of external audits of its awardee institutions, as required by
OMB Circular A-50. By not formally recognizing and providing opportunities for
the auditors’ role in audit resolution, NSF risks negotiating incomplete or
ineffective corrective action plans, as we found in 19 of 34 sampled audits.

                                          i
In addition, although followup is required by Circular A-50, NSF’s interpretation of
both Circular A-50 and its own policies do not ensure that institutions implement
corrective actions. Consequently, in           sampled audits, NSF did not
confirm that audit-reported award management accounting and internal control
weaknesses had been fixed.

Recommendations
We recommend that the NSF Director, in conjunction with the NSF Inspector
General:

                 1. Issue an overarching policy directive that recognizes audit
                    resolution as an agency priority and a shared responsibility
                    between NSF management and the OIG.

                 2. Revise agency policies, procedures and practices for
                    resolving and following up on report findings and
                    recommendations for external audits to comply with the
                    provisions of Circular A-50 and the IG Act.

                 3. In coordination with the OIG, provide training to all staff
                    involved in the audit resolution process regarding roles and
                    responsibilities and the impact of the new and revised
                    policies and procedures.

                 4. Reconsider the organizational placement of NSF’s audit
                    resolution function and, at a minimum, establish procedures
                    to address and prevent potential personal conflicts of interest
                    in resolving audits at institutions where an NSF staff member
                    has provided advice and assistance.

Agency Response and OIG Comments
NSF indicates general agreement with the report’s recommendations and has
proposed a joint NSF/OIG working group to consider strategies for improving the
agency’s audit resolution and followup processes. However, because NSF
plans to continue to utilize its existing processes, it is important that the joint
working group convene as soon as possible and move to expedite its review in
order to clarify NSF’s position on the report recommendations and implement
new procedures consistent with OMB Circular A-50.




                                         ii
